TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Payments Processed Through the
                    Remittance Strategy for Paper Check
                   Conversion Are Posted Accurately, but
                   Deposit Timeliness Needs Improvement



                                       April 16, 2010

                           Reference Number: 2010-40-048




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   April 16, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Payments Processed Through the Remittance
                                Strategy for Paper Check Conversion Are Posted Accurately, but
                                Deposit Timeliness Needs Improvement (Audit # 200940007)

 This report presents the results of our review to determine the timeliness and accuracy of
 processing paper remittances through the Remittance Strategy for Paper Check Conversion
 (RS–PCC) and to determine whether it is functioning as intended. The RS-PCC is a system that
 electronically processes paper checks. This audit was included in the Treasury Inspector General
 for Tax Administration’s Fiscal Year 2009 Annual Audit Plan under the major management
 challenge of Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 The RS–PCC is a system being implemented to electronically process taxpayers’ checks. It is
 expected to result in reduced staff hours needed to process remittances, a decrease in the Lost
 Opportunity Cost 1 on payments, and a decrease in mail costs. The RS–PCC is expected to
 reduce the number of instances where personally identifiable information is inadvertently
 disclosed. Remittances are being accurately processed through the RS–PCC, but only 13 percent
 of the 770,504 payments are being deposited the next business day. The Lost Opportunity Cost
 associated with the deposits not being timely is $696,115. Taxpayers lose the benefit of the
 interest earned on timely deposits that is credited to the Department of the Treasury.


 1
   Lost Opportunity Cost measures the interest value of money not deposited by close of business the day after
 receipt. Each $1,000,000 of deposits not processed within 24 hours or 1 business day has the opportunity to lose
 8 percent interest on that specific deposit amount. The interest lost is the basis of Lost Opportunity Cost. This rate
 is used for comparability to prior years and is not intended to represent the current interest rate.
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement



Synopsis
In Fiscal Year 2005, the Internal Revenue Service (IRS) began working toward the ability to
electronically process paper checks. The IRS expects this will eliminate the need to manually
transport and process paper checks. To move toward electronic check processing, the IRS has
implemented the RS–PCC. Paper checks presented for payment of any tax obligation at an IRS
Consolidated Processing Center 2 are scanned with a desktop scanner and the data are converted
to an electronic format. Using a secure transmission over the Internet, the IRS transmits the
detailed remittance information to the Financial Management Service, a bureau of the
Department of the Treasury that provides central payment services to Federal agencies. The
Federal Reserve Bank then debits the taxpayer’s bank account.
The information is also sent to the Electronic Federal Tax Payment System for posting to the
taxpayer’s IRS account. The RS–PCC interfaces with the Electronic Federal Tax Payment
System to post taxpayer payment information overnight to the Master File. 3 The scanned checks
are maintained for 14 days and then destroyed as classified waste.
The RS–PCC is expected to result in reduced staff hours needed to process remittances, a
decrease in the Lost Opportunity Cost on payments, and a decrease in mail costs. The RS–PCC
is expected to reduce the number of instances where personally identifiable information is
inadvertently disclosed. The quality performance indicator for the RS–PCC is Deposit
Timeliness as measured by Lost Opportunity Cost. Deposit Accuracy and Timeliness measures
are also expected to improve.
Based on a sample of 469 payments, checks are generally being posted accurately and secured
both before and after processing. In addition, checks are being appropriately retained for the
required 14 days.
The system that maintains the archived images of RS–PCC checks is reliable. A review of
archived check images for 253 payments showed the correct archived check image for
251 (99 percent) of 253 payments. *****************1************************.
******************************************************.




2
  Electronic filing has significantly reduced the number of paper tax returns received each year by the IRS,
requiring fewer Submission Processing Centers to process paper returns. The Andover, Massachusetts;
Brookhaven, New York; Philadelphia, Pennsylvania; and Memphis, Tennessee, Submission Processing Centers have
been consolidated (closed). The work previously performed by Submission Processing at those sites is now done in
other Submission Processing Centers or by the Accounts Management function in Andover, Brookhaven, Memphis,
and Philadelphia.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                              2
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement


Finally, from a sample of 253 payments, 83 check images included a taxpayer notation on how
the payment should be applied to the taxpayer’s account. In all 83 cases, the payment was
applied per the taxpayers’ requests.
However, the codes used to track electronic payments need enhancements. The IRS uses various
codes to trace and track batches of checks and individual
electronic payments. One of the codes is the Remittance           The lack of specific batch
Processing System Identification number, which is              coding makes it difficult for the
assigned to a batch of checks in the RS–PCC unit and             IRS to know when there is a
                                                                   problem with a particular
allows the IRS to follow the batch as it moves through
                                                                   location’s processing of
payment processing. After the data from batches are                       payments.
uploaded to the Financial Management Service, the
RS–PCC units receive a reconciliation report that
indicates the status of the batch information that the Financial Management Service received.
The items on the reconciliation report are not broken out or identified by RS–PCC unit. The
reconciliation report also does not include the Remittance Processing System Identification
number. The lack of specific batch coding makes it difficult for the IRS to know which locations
are processing the most payments received from taxpayers or to identify when there is a problem
with a particular location’s processing of payments.
An Electronic Funds Transfer Number is also assigned to individual electronic payments and
allows the IRS to track a specific payment. A test of 901,455 RS–PCC payments processed
between January 22, 2008, and July 22, 2009, identified 130,951 payments (15 percent) that
were inaccurately coded. Because payments were not coded according to established criteria,
other payment types were erroneously included in the population and we could not identify all
RS–PCC payments. The IRS stated it realized the guidance for identifying the RS–PCC
payments was inaccurate so it used other ways to identify these payments.
Though checks are being accurately processed, only 13 percent of payments are being deposited
the next business day through the Financial Management Service. The IRS’ expectation is that
all funds be deposited within 24 hours. 4 Analysis of the 770,504 payments processed through
RS–PCC from January 22, 2008, through July 22, 2009, showed that only 99,828 payments
(13 percent) met the next business day standard. The remaining 670,676 payments (87 percent)
were deposited in a time period more than the next business day. The Lost Opportunity Cost
associated with these deposits not being timely is $696,115. The RS–PCC Lost Opportunity
Cost is $449.79 per $1 million in payments. This amount is more than 2 times the cost per



4
 Payments must be deposited within 24 hours (next business day). Payments received on Saturday, Sunday, and
holidays need not be deposited until the next business day (the day following the weekend or holiday). Also,
payments of $100,000 or more must be deposited the same day as received.

                                                                                                               3
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement


$1 million in payments processed through a Submission Processing Center for Fiscal Year 2009
($203).
Payments of $100,000 or more are considered timely deposited if the payments are deposited the
same day as received. Of the 670,676 payments deposited untimely, 910 payments were for
$100,000 or more. None of the 910 payments were deposited on the same day as received. The
Lost Opportunity Cost associated with these deposits not being timely deposited is $316,021.
While these 910 payments are less than 1 percent of the total volume of payments processed,
they account for about 45 percent of the Lost Opportunity Cost.
The IRS has also not determined if the RS–PCC has reduced the staff hours needed to process
remittances, decreased the Lost Opportunity Cost on payments, or decreased mail costs. The
IRS stated that it plans to make this determination after Release Two has been implemented.
Therefore, it could not provide us with any calculations or figures to determine if the RS–PCC is
making payment processing more efficient or cost effective.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, further refine the
RS-PCC codes to be able to track batches of payments down to the location where the batches of
payments were processed and revise the internal guidelines to clarify the criteria used to identify
RS-PCC payments to ensure they are properly coded.
The Commissioner should also monitor Lost Opportunity Cost and other costs such as labor and
mail costs associated with the RS–PCC as it is implemented and develop a strategy to improve
timeliness and reduce the Lost Opportunity Cost associated with processing payments through
the RS–PCC at the Consolidated Processing Centers.

Response
The IRS agreed with all of our recommendations. It has submitted a Unified Work Request for
deployment of RS-PCC Release Two. Release Two will have the ability to track payments to the
specific processing location and monitor costs associated with the RS-PCC, such as labor and
mail costs. The IRS reviewed and revised internal guidelines for identifying the RS-PCC
payments. It will also develop an action plan to improve timeliness of payments processed at
Consolidated Processing Centers and to reduce Lost Opportunity Cost associated with processing
payments through the RS-PCC. Management’s complete response to the draft report is included
as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or


                                                                                                  4
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement


Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                             5
                    Payments Processed Through the Remittance Strategy for Paper
                    Check Conversion Are Posted Accurately, but Deposit Timeliness
                                         Needs Improvement




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Payments Are Being Accurately Posted to Taxpayer
          Accounts and Maintained in a Secure Environment.....................................Page 5
          Codes Used to Track Electronic Payments Need Enhancements .................Page 8
                    Recommendation 1:........................................................Page 11

                    Recommendation 2: .................................................................. Page 12

          Funds Are Not Being Deposited Within 24 Hours .......................................Page 12
                    Recommendation 3:........................................................Page 14

                    Recommendation 4:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Management’s Response to the Draft Report ......................Page 21
         Payments Processed Through the Remittance Strategy for Paper
         Check Conversion Are Posted Accurately, but Deposit Timeliness
                              Needs Improvement




                         Abbreviations

IRS                Internal Revenue Service
RPSID              Remittance Processing System Identification
RS–PCC             Remittance Strategy for Paper Check Conversion
                   Payments Processed Through the Remittance Strategy for Paper
                   Check Conversion Are Posted Accurately, but Deposit Timeliness
                                        Needs Improvement




                                             Background

The Internal Revenue Service (IRS) accepts billions of dollars in payments every year from
taxpayers paying estimated tax payments in advance of filing their tax returns, submitting
payments with their tax returns, and paying past due taxes. Most of these payments are made
with paper checks. In Fiscal Year 2005, the IRS began working toward the ability to
electronically process paper checks. The IRS expects this will eliminate the need to manually
transport and process paper checks.

    The RS–PCC is designed to:                           To move toward electronic check processing,
                                                         the IRS has implemented the Remittance
    • Create and utilize digitized images of the front   Strategy for Paper Check Conversion
      and back of the remittances/checks.
                                                         (RS-PCC). Paper checks presented for
    • Provide the capability to capture taxpayer         payment of any tax obligation at an IRS
      information through manual operator entry and
      to capture remittance data through scanning.       Consolidated Processing Center 3 are scanned
    • Transmit remittance transactions to the
                                                         with a desktop scanner and the data are
      Financial Management Service Electronic            converted to an electronic format. Using a
      Verification and Imaging System 1 to facilitate    secure transmission over the Internet, the IRS
      deposit of the remittance.                         transmits the detailed remittance information to
    • Interface with the Electronic Federal Tax          the Financial Management Service, a bureau of
      Payment System 2 to enable the crediting of        the Department of the Treasury that provides
      taxpayer accounts and receive a Document           central payment services to Federal agencies.
      Locator Number and a Trace Identifier for each
      transaction.                                       The Federal Reserve Bank then debits the
                                                         taxpayer’s bank account.
    • Transmit all information necessary for long-term
      storage to the Remittance Transaction              The information is sent to the Electronic
      Research system.
                                                         Federal Tax Payment System for posting to the
    • Retain data and images for 14 days on the          taxpayer’s IRS account. The RS–PCC
      server to accommodate downstream balancing
      and correction activities.
                                                         interfaces with the Electronic Federal Tax
                                                         Payment System to post taxpayer payment


1
  The host application where all check images are stored.
2
  A tax payment system provided free by the United States Department of the Treasury to allow individuals to pay
Federal taxes electronically via the Internet or telephone.
3
  Electronic filing has significantly reduced the number of paper tax returns received each year by the IRS,
requiring fewer Submission Processing Centers to process paper returns. The Andover, Massachusetts;
Brookhaven, New York; Philadelphia, Pennsylvania; and Memphis, Tennessee, Submission Processing Centers have
been consolidated (closed). The work previously performed by Submission Processing at those sites is now done in
other Submission Processing Centers or by the Accounts Management function in Andover, Brookhaven, Memphis,
and Philadelphia.
                                                                                                        Page 1
                  Payments Processed Through the Remittance Strategy for Paper
                  Check Conversion Are Posted Accurately, but Deposit Timeliness
                                       Needs Improvement



information overnight to the Master File. 4 The scanned checks are maintained for 14 days and
then destroyed as classified waste.
The RS–PCC is expected to result in reduced staff hours needed to process remittances, a
decrease in the Lost Opportunity Cost 5 on payments, and a decrease in mail costs. The RS–PCC
is expected to reduce the number of instances where personally identifiable information is
inadvertently disclosed. The quality performance indicator for it is Deposit Timeliness as
measured by Lost Opportunity Cost. Deposit Accuracy and Timeliness measures are also
expected to improve. Although the IRS stated in its business case that RS–PCC would bring
about a decrease in Lost Opportunity Cost on payments and chose Deposit Timeliness as its
quality performance indicator, it stated this measure does not accurately reflect the performance
of the RS–PCC. However, it continues to calculate the Lost Opportunity Cost for comparability
purposes.
The IRS has stated that the delays in depositing taxpayer
payments result in $13 million annually of Lost                              After implementation of the
Opportunity Cost. After full implementation, annual                        RS-PCC, the IRS expects to save
savings on mail costs are expected to be approximately                       $13 million annually in Lost
                                                                           Opportunity Cost, $2.8 million in
$2.8 million. Annual savings in labor costs are expected
                                                                            mail costs, and $6.4 million in
to be 144 Full-Time Equivalents 6 or $6.4 million                                    labor costs.
(calculated using Fiscal Year 2006 data).
Currently, the RS–PCC is converting paper remittances received only at Consolidated Processing
Centers. The following centers are currently using the RS–PCC:
    •    The Philadelphia, Pennsylvania, Consolidated Processing Center began use on
         January 14, 2008, to process insolvency trustee checks for single cases and on
         May 20, 2008, to process perfect payments. 7
    •    The Brookhaven, New York, Consolidated Processing Center began use on
         May 28, 2008, to process perfect payments and on October 22, 2008, to process Offer in
         Compromise payments.


4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
5
  Lost Opportunity Cost measures the interest value of money not deposited by close of business the day after
receipt. Each $1,000,000 of deposits not processed within 24 hours or 1 business day has the opportunity to lose
8 percent interest on that specific deposit amount. The interest lost is the basis of Lost Opportunity Cost. This rate
is used for comparability to prior years and is not intended to represent the current interest rate.
6
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular Fiscal Year. For Fiscal Year 2009, 1 Full-Time Equivalent was equal to
2,088 staff hours.
7
  A perfect payment is a payment received for one taxpayer with one Taxpayer Identification Number for one
amount and one tax period.
                                                                                                               Page 2
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement



   •   The Memphis, Tennessee, Consolidated Processing Center began use on June 10, 2008,
       to process perfect payments and on October 20, 2008, to process Offer in Compromise
       payments.
   •   The Andover, Massachusetts, Consolidated Processing Center began use on
       June 29, 2009, to process perfect payments.
In Fiscal Year 2010, the IRS will begin expanding the use of the RS–PCC to IRS walk-in offices
called Taxpayer Assistance Centers.
The RS–PCC is being implemented in phases called releases
The pilot, called Release One, has been implemented at the Brookhaven, Memphis, and
Philadelphia Consolidated Processing Centers; Brookhaven and Memphis Centralized Offer in
Compromise Operations; and Philadelphia Centralized Insolvency Operations. Release One
provides the capacity of single check processing. A portion of Release One of the RS–PCC was
deployed June 2009 at the Andover Consolidated Processing Center.
The IRS recently received funding to begin Release Two activities and is currently updating the
schedule to reflect a new start date and update additional pilot sites. Release Two will:
   •   Process split remittances (one check received for more than one return/document and/or
       more than one tax period) and multiple payments (two or more remittances received with
       a single return/document).
   •   Be piloted at 10 Taxpayer Assistance Centers beginning in April 2010. The pilot will
       provide Release One functionality within the following Taxpayer Assistance Centers:
       San Francisco, California; Hartford, Connecticut; Detroit, Michigan; Kansas City,
       Missouri; Las Vegas, Nevada; Newark, New Jersey; Charlotte, North Carolina;
       Guaynabo, Puerto Rico; Dallas, Texas; and San Antonio, Texas.
   •   Equip all Taxpayer Assistance Centers with the RS–PCC Release Two functionality to
       process remittances. The RS–PCC will be fully deployed at all Taxpayer Assistance
       Centers between November 2010 and February 2011.
Currently, the IRS field offices are not equipped to process and deposit checks. Checks received
in field locations must be logged and mailed to a Submission Processing Center for processing.
The receiving site verifies the payments received in the mail and forwards the checks for
processing. This process of mailing the remittances can take 3 or more days; thus the checks are
not deposited within 24 hours. The Wage and Investment and Small Business/Self-Employed
Division Collection functions are in the planning stage of developing RS–PCC functionality for
the Small Business/Self-Employed Division Collection function field offices in Release Three.
This review was performed at the IRS Submission Processing Center in Ogden, Utah, and the
Consolidated Processing Centers in Philadelphia, Pennsylvania, and Memphis, Tennessee,
during the period July through December 2009. We conducted this performance audit in
                                                                                          Page 3
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement



accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                  Payments Processed Through the Remittance Strategy for Paper
                  Check Conversion Are Posted Accurately, but Deposit Timeliness
                                       Needs Improvement




                                       Results of Review

Payments Are Being Accurately Posted to Taxpayer Accounts and
Maintained in a Secure Environment
The RS–PCC Release One has been implemented at the planned Consolidated Processing
Centers. Based on a sample of 469 payments, 8 checks are generally being posted accurately and
secured both before and after processing. In addition, checks are being appropriately retained for
the required 14 days.

The processing workflow
Several times a day checks extracted from the mail are delivered to the RS–PCC unit for
processing. The checks are sorted into various categories, such as payments from individual
taxpayers or businesses, or single checks without a posting document. Batches of 20 to
25 checks are created. The batch number is entered on a batch sheet and the batch is placed on a
cart, indicating it is ready to be scanned.
Employees in the RS–PCC unit sign out a batch from the cart by initialing the batch sign-out
sheet. From the signed-out batch, the employee manually enters the following items into the
RS–PCC system for each check:
    •    Received Date.
    •    Name Control.
    •    Taxpayer Identification Number Type. 9
    •    Remittance Processing System Identification (RPSID) Number.
    •    Tax Period.



8
  The sample included: 1) a statistical sample of 203 payments; 2) all 14 payments equal to or greater than
$2.5 million; 3) a sample of 50 payments equal to or greater than $100,000 but less than $2.5 million; 4) a sample of
50 payments equal to or less than $5; 5) 76 payments pulled from 3 batches of perfect payments during our visit to
Memphis; and 6) 76 payments pulled from 4 batches (3 batches of perfect payments and 1 batch of insolvency
payments) during our visit to Philadelphia. See Appendix I for details of our sampling method.
9
  The IRS associates taxpayers with tax records using a Taxpayer Identification Number, be it an Individual
Taxpayer Identification Number, Social Security Number, or Employer Identification Number. An Employer
Identification Number is a Federal Tax Identification Number used to identify a business entity, including estates
and trusts.
                                                                                                             Page 5
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement



   •   Master File Code (obtained from the source document or job aid).
   •   Primary Transaction Code.
Figure 1 shows the various systems that interact to process checks through the RS–PCC.
               Figure 1: Paper Revenue Payment Processing Workflow




       Source: RS−PCC, IRS Briefing, June 29, 2009. ALC = Agency Location Code, ID = Identification
       Number, DLN = Document Locator Number, IRN = Item Reference Number, ELVIS = Electronic
       Verification and Imaging System, EFTPS = Electronic Federal Tax Payment System, PCC OTC = Paper
       Check Conversion Over The Counter, FMS = Financial Management Service, RTR = Remittance
       Transaction Research.

Each check is inserted into the scanning unit where it is imprinted with the notation
“Electronically Processed” after scanning is complete. Once the employee has scanned all the
items in a batch, a calculator tape is run from the amount on the checks and attached to the batch
sheet. The employee places the batch back on a cart to be reviewed. Once the batch has been
reviewed for accuracy, the check information is uploaded to the bank through the Financial
Management Service. When a batch of payments is transmitted to the Financial Management
                                                                                                 Page 6
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement



Service, each payment in the batch is given a deposit date of the next day, regardless of the
payment amount. Although the system allows data uploads at any time, the Consolidated
Processing Centers have been asked to upload data at specific times to avoid overloading the
system. Payment amounts are generally posted to the taxpayers’ accounts within 3 days. The
payment is considered processed at that point.
The RS–PCC unit employees strive to work the batches of checks when received or by the next
business day. However, this does not always occur because the volume of checks received might
be more than the unit can process in 1 day. For example, at 1 site visited, the batches were not
processed until 3 days after receipt. These checks were received on the day after a holiday. The
batches are to be worked on a first-in, first-out method. The RS–PCC unit may transship the
checks to a processing campus 10 if the decision is made that the unit can not timely work the
checks.
The IRS stated the Consolidated Processing Centers have processed as much as 80 percent of the
checks received, transshipping the remaining 20 percent to a Submission Processing Center.
However, the Consolidated Processing Centers process an average of 50 percent of the checks
received. The IRS stated it expects this percentage of checks worked to increase as more
locations implement the RS–PCC.
While posting timeliness is not a performance measure, working the batches quickly helps ensure
that deposits will be timely. Of the 469 checks reviewed, all had posted to the taxpayers’
account, *************************************
********************************************                   Of the 469 checks reviewed, all
********************************************                   were posted to the taxpayers’
***********************1*********************                             accounts.
*********************************************
**************************************************************************.
Checks are properly secured during RS–PCC processing. A proxy card with the proper
authorization or code is required to enter the RS–PCC unit and no personal belongings are
allowed in the unit. Employees have access to lockers outside the unit to store their personal
belongings. Visitors must also leave their belongings outside the RS–PCC unit and remain with
an escort while in the RS–PCC unit.
Each batch of paper checks is maintained by the unit for 14 days. At the end of the 14 days, the
documents are shredded. The shredder is located in the same area where the checks are stored.
Shredding usually occurs daily; the shredded checks and documents are bagged and placed in a
classified dumpster.


10
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
11
   A cycle refers to a processing week that transactions post to the Master File.
                                                                                                          Page 7
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement



Scanned images may not always reflect the data on the paper check
****************************************************************************
**************************************1************************************.
However, if the scanners misread the magnetic ink check number, there is an inherent risk that
they could also misread the magnetic ink bank account or bank routing numbers. This could
result in the payment being drawn on the wrong bank account. Additional IRS resources would
then need to investigate and resolve the error and could result in additional taxpayer burden. The
IRS is aware that the scanned image may not always reflect the data on the paper checks but
stated that these occurrences are rare. It stated that the Financial Management Service checks the
validity of corresponding bank account and bank routing numbers so the risk is very low that a
payment would be drawn on an incorrect bank account. Further, the Financial Management
Service would correct any errors resulting from the scanner incorrectly reading the magnetic
information on the check without notifying the IRS.
As soon as a check is scanned and the image is available, image quality tests are performed on
the check. If a check passes the image quality tests, processing continues. It is vitally important
that the scanned check be fully visible and legible. The image on the screen is the image that is
submitted to the bank for collection. It is also stored in the archives for future retrieval purposes
once the check is returned to the customer or destroyed. If the IRS is unable to collect payment
with the image that has been submitted, the debit reverts back to the IRS and collection becomes
the IRS’ responsibility.
The system that maintains the archived images of RS–PCC checks is reliable. A review of
archived check images for 253 payments showed the correct archived check image for 251
(99 percent) of 253 payments. *************************1**************************
*******************************************************.
Finally, from a sample of 253 payments, 83 check images included a taxpayer notation on how
the payment should be applied to the taxpayer’s account. In all 83 cases, the payment was
applied per the taxpayers’ requests.
Because the error rate was low for scanned images not reflecting the data on the paper payment
(1 of 152 payments or less than 1 percent) and the archive system retrieving incorrect images
(2 of 253 payments or less than 1 percent), we are not making any recommendations.

Codes Used to Track Electronic Payments Need Enhancements
The IRS uses various codes to trace and track batches of checks and individual electronic
payments. A RPSID is assigned to a batch of checks in the RS–PCC unit and allows the IRS to
follow the batch as it moves through payment processing. A separate batch identification code is
also assigned that is unrelated to the RPSID. An Electronic Funds Transfer Number is assigned
to individual electronic payments and allows the IRS to track a specific payment.

                                                                                              Page 8
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement



Assigned batch codes from the Financial Management Service do not relate to
IRS codes
A RPSID is a six-digit code that is used to control batches or remittances and is used to designate
which categories of checks are processed through the RS–PCC. Figure 2 shows the RPSID
ranges assigned to the different payment types.
                                   Figure 2: RPSID Ranges

                      Category                               Range

                                                              000000
                      Insolvency
                                                        (Philadelphia only)
                      Perfect Misdirected
                                                        000001 - 489999
                      Remittances
                                                        590000 - 599999
                      Offer in Compromise               (Brookhaven and
                                                         Memphis only)
                      Payment Perfection                610000 - 764999
                      Imperfect Misdirected
                     Source: IRS internal guidelines.

Problems occur when errors in the batches are identified. For example, after the data from
batches are uploaded to the Financial Management Service, the RS–PCC units receive a
reconciliation report that indicates the status of the batch information that the Financial
Management Service received. This report is generated several times a day and contains data for
all four RS–PCC campuses. The items on the reconciliation report are not broken out or
identified by RS–PCC unit. The reconciliation report
also does not include the RPSID number. Instead, the            If there is a problem with one of
reconciliation report includes a 32-digit alphanumeric         the  batches of processed checks,
                                                                  each campus must review all
batch identification code generated by the Financial                 batches to determine if it
Management Service software. If the report indicates                   processed the batch.
that there was a problem with one of the batches
(status is anything except “sent for deposit”) each
campus must review all batches to determine if it processed the batch. Employees compare the
batch counts and amounts submitted with those on the reconciliation report. The processing
RS-PCC unit must then review the batch to determine what the problem was and resolve it.
Also, the lack of specific coding makes it difficult for the IRS to know which locations are
processing the most payments received from taxpayers or to identify when there is a problem
with a particular location’s processing of payments.



                                                                                            Page 9
                Payments Processed Through the Remittance Strategy for Paper
                Check Conversion Are Posted Accurately, but Deposit Timeliness
                                     Needs Improvement



Control activities are the policies, procedures, techniques, and mechanisms that enforce
management’s directives and help ensure that actions are taken to address risks. The
reconciliation report is an important control but its effectiveness is diminished when the
processing location can not identify its batches.

RS–PCC payments were improperly coded
The Electronic Funds Transfer Number for RS–PCC payments is a unique 17-digit number
assigned to each electronic payment and is used to track electronic payments.
       Positions 1-2 are the code for the Submission Processing Center.
       Position 3 is the Financial Agent identification number (5 = RS–PCC).
       Position 4 is the payment method (2 = Automated Clearinghouse Debit).
       Position 5 is a Combined Payment Indicator.
       Positions 6-9 are the Year Digit/Julian Date.
       Positions 10-11 are the Bulk Provider Number (Type of Payment and Location).
       Positions 12-17 are the Electronic Funds Transfer Sequence Number.
RS–PCC payments should have “520” in the 3rd through 5th positions. Further, the 10th and
11th positions designate the type of payment and location. Figure 3 provides the location and
types of payments and assigned codes.
                     Figure 3: Assigned Codes for RS–PCC Payments

      Location and Type                Code   Location and Type                         Code

                                              Brookhaven – Centralized Offer in
      Philadelphia – Insolvency         01                                               09
                                              Compromise
                                              Memphis – Centralized Offer in
      Philadelphia – Perfect            02                                               10
                                              Compromise

      Brookhaven – Perfect              05    Andover – Perfect                          11

      Memphis – Perfect                 07

    Source: IRS internal guidelines.

A test of 901,455 RS–PCC payments processed between January 22, 2008, and July 22, 2009,
identified 130,951 payments (15 percent) with a “520” in the 3rd through 5th positions of the
Electronic Funds Transfer Number and with “00” as the location code. The “00” is not an
assigned location code. Further, 9,083 RS–PCC payments (1 percent) were identified with “521”
in the 3rd through 5th positions of the Electronic Funds Transfer Number. The incorrect “521”
coding was used for a limited number of payments processed between January 22 and
May 6, 2008. The IRS stated it realized the guidance for identifying the RS–PCC payments was
                                                                                             Page 10
                Payments Processed Through the Remittance Strategy for Paper
                Check Conversion Are Posted Accurately, but Deposit Timeliness
                                     Needs Improvement



inaccurate so it used other ways to identify these payments. Because payments were not coded
according to the established criteria, other payment types were erroneously included in the
population and we could not identify all RS–PCC payments.
The IRS is aware that its systems do not allow it to identify where all payments have been
processed. During the Fiscal Year 2008 financial audit of the IRS, 12 the Government
Accountability Office found that information on the total number and dollar amount of taxpayer
receipts received at the IRS’ Taxpayer Assistance Centers was not readily available to IRS
management. Specifically, the Government Accountability Office found that the IRS did not
track the total number or dollar amount of taxpayer receipts received at Taxpayer Assistance
Centers at the individual Taxpayer Assistance Center, group, territory, area, or nationwide level.
Because this financial information was not tracked and therefore not readily available, IRS
managers lacked financial information that would be useful in making operating decisions and
assessing risk at the Taxpayer Assistance Centers.
Program managers need financial data to determine whether they are effectively and efficiently
using resources. The volume of receipts processed by a specific location would be useful in
making informed operating decisions, such as determining how to manage effectively the risks
associated with receiving tax receipts and taxpayer information. For example, the volume and
amount of receipts may affect decisions on staffing levels and service hours at the Taxpayer
Assistance Centers. Because the IRS does not track the dollar amounts and volumes of taxpayer
receipts received at Taxpayer Assistance Centers and does not routinely report this information
to allow for periodic monitoring of risk, it lacks certain information which could assist in
managing the risk associated with receiving tax receipts and taxpayer information at its Taxpayer
Assistance Center facilities. The Government Accountability Office recommended that the IRS
establish procedures to track and routinely report the total dollar amounts and volumes of
receipts collected by individual Taxpayer Assistance Center location, group, territory, area, and
nationwide. The IRS agreed to do so, contingent on the availability of funding, by October 2012.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Further refine the RS–PCC codes to be able to track batches of
payments down to the location where the batches of payments were received and processed.
        Management’s Response: IRS management agreed with this recommendation. The
        ability to track payments by location has always been part of the design for the RS-PCC
        system. As such, an update occurred during late March 2010, which provided
        enhancements to the RS-PCC daily and weekly reports. As a result of these

12
  Management Report: Improvements Are Needed to Enhance IRS’s Internal Controls and Operating Effectiveness
(GAO-09-513R, dated June 2009).
                                                                                                  Page 11
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement



        enhancements, the IRS is now able to track payments to the location the payment was
        received and processed. This will allow for tracking at Consolidated Processing Centers
        and Taxpayer Assistance Center pilot sites.
        On November 19, 2009, the Wage and Investment Division submitted a Unified Work
        Request for deployment of RS-PCC Release Two. The ability to track payments to the
        specific processing location will be included in the RS-PCC Release Two. Deployment
        is scheduled to occur between November 2010 and February 2011. Since the requested
        action will be subject to available funding and resource prioritization by the
        Modernization and Information Technology Services organization, the submission of
        Unified Work Request completes the corrective action.
Recommendation 2: Revise the internal guidelines to clarify the criteria used to identify
RS-PCC payments to ensure they are properly coded.
        Management’s Response: IRS management agreed with this recommendation.
        They reviewed and revised internal guidelines for identifying the RS-PCC payments in
        March 2010.

Funds Are Not Being Deposited Within 24 Hours
Though checks are being accurately processed, only 13 percent of payments are being deposited
through the Financial Management Service within 24 hours. 13 The IRS expectation is that all
funds be deposited within 24 hours. The IRS was not aware that funds were not being deposited
within 24 hours because it has not been monitoring deposit timeliness as measured by Lost
Opportunity Cost for the RS–PCC. The IRS stated that the Financial Management Service
policy of assigning the deposit date as the next day causes the failure to meet the 24-hour time
standard.
Analysis of the 770,504 payments processed through RS–PCC from January 22, 2008, through
July 22, 2009, showed that only 99,828 payments (13 percent) met the 24-hour deposit standard.
The remaining 670,676 payments (87 percent) were deposited in a time period more than
24 hours. The Lost Opportunity Cost associated with the deposits not being timely is $696,115.
Taxpayers lose the benefit of the interest earned on timely deposits that is credited to the
Department of the Treasury. The RS–PCC Lost Opportunity Cost is $449.79 per $1 million in
payments. This amount is more than 2 times the cost per $1 million in payments processed
through a Submission Processing Center for Fiscal Year 2009 ($203). This results in a
difference of $247 per $1 million in payments between Consolidated Processing Centers and
Submission Processing Centers.

13
  Payments must be deposited within 24 hours (next business day). Payments received on Saturday, Sunday, and
holidays need not be deposited until the next business day (the day following the weekend or holiday). Also,
payments of $100,000 or more must be deposited the same day as received.
                                                                                                      Page 12
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement



Payments of $100,000 or more are timely deposited if the payments are deposited the same day
as received. Of the 670,676 payments untimely deposited, 910 payments were for $100,000 or
more. None of these 910 payments were deposited on the same day as received. The Lost
Opportunity Cost associated with these deposits not being timely deposited is $316,021. While
these 910 payments are less than 1 percent of the total volume of payments processed, they
account for about 45 percent of the Lost Opportunity Cost.
A significantly higher percentage of payments (62 percent) were deposited within 48 hours or
2 business days. By 120 hours or 5 business days, 96 percent of the payments were deposited.
Figure 4 shows the percentage of payments processed through the RS–PCC in 1 to 5 business
days.
       Figure 4: Percentage of Payments Processed in 1 to 5 Business Days

                                                                             96%
                                                                 92%
             100%
                                                      79%

              80%
                                       62%

              60%


              40%
                          13%
              20%


               0%
                     24 Hours    48 Hours     72 Hours      96 Hours   120 Hours

           Source: Our analysis of RS–PCC payments.

The delay in deposits occurred because batches of checks were not worked quickly enough for
the check images to be delivered to the Financial Management Service on the same day. In
addition, when a payment is transmitted, the Financial Management Service automatically gives
a deposit date of the next day, regardless of the payment amount. This practice does not explain
why the remaining 38 percent of the payments did not meet the 24-hour time standard, taking
72 hours or more to be processed.
Each campus has specific times at which it uploads data to the Financial Management Service.
There are two major components owned by the Financial Management Service and used to
process a check from receipt to collection.



                                                                                         Page 13
               Payments Processed Through the Remittance Strategy for Paper
               Check Conversion Are Posted Accurately, but Deposit Timeliness
                                    Needs Improvement



   •   The first major component is the Electronic Verification and Imaging System used for
       researching check images.
   •   The second major component is a software package installed on the IRS’ computers
       called Point of Sale that processes check transactions.
The employee takes the check and inserts it into the Point of Sale scanner which reads the
Magnetic Ink Character Recognition line on the bottom of the check and captures the image of
the check into the Point of Sale computer. The bank account information from the Magnetic Ink
Character Recognition line is transmitted to the Federal Reserve Bank of Cleveland for
processing. The paper check is no longer sent to the bank. The Federal Reserve Bank of
Cleveland provides the electronic deposit tickets and debit vouchers for IRS retrieval through the
Electronic Verification and Imaging System. Any payment received by 9:30 P.M. Eastern
Standard Time is recorded by the Financial Management Service as deposited the next day.
The IRS is committed to ensuring a 24-hour deposit standard stating it is of the utmost
importance to deposit the largest amount of money in the shortest possible time period in order to
maintain good cash management practices. Payments received on Saturday, Sunday, and
holidays need not be deposited until the next business day (the day following the weekend or
holiday). All payments of $50,000 to $99,999 must be deposited by the next business day
(excluding Saturdays and Sundays). Payments of $100,000 or more must be deposited on the
same day as received.
The IRS has not determined if the RS–PCC is meeting expectations
The IRS has also not determined if the RS–PCC has reduced the staff hours needed to process
remittances, decreased the Lost Opportunity Cost on payments, or decreased mail costs. The
IRS stated that it plans to make this determination after Release Two has been implemented.
Therefore, it could not provide us with any calculations or figures to determine if the RS–PCC is
making payment processing more efficient or cost effective.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Monitor Lost Opportunity Cost and other costs such as labor and mail
costs associated with the RS–PCC as it is implemented.
       Management’s Response: IRS management agreed with this recommendation.
       Monitoring of other costs associated with the RS-PCC, such as labor and mail costs, are
       included in RS-PCC Release Two. The Unified Work Request to initiate deployment of
       Release Two was submitted on November 19, 2009. Deployment is scheduled to occur
       between November 2010 and February 2011. Since the requested action will be subject
       to available funding and resource prioritization by the Modernization and Information

                                                                                          Page 14
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement



       Technology Services organization, the submission of the Unified Work Request
       completes the corrective action.
Recommendation 4: Develop a strategy to improve timeliness and reduce the Lost
Opportunity Cost associated with processing payments through the RS–PCC at the Consolidated
Processing Centers.
       Management’s Response: IRS management agreed with this recommendation. The
       RS-PCC Project Team will meet with representatives from the Wage and Investment
       Division Accounts Management function to develop an action plan to improve timeliness
       of payments processed at Consolidated Processing Centers and to reduce Lost
       Opportunity Cost associated with processing payments through the RS-PCC.
.




                                                                                      Page 15
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine the timeliness and accuracy of processing paper
remittances through the RS–PCC and to determine whether it is functioning as intended. To
accomplish this objective, we:
I.      Determined the method the IRS used to measure the success of the RS–PCC pilot prior to
        further implementation.
II.     Identified the controls in place to ensure that paper remittances are properly and timely
        processed.
         A. Reviewed the Internal Revenue Manual to identify the controls.
         B. Discussed with IRS management the controls at the Consolidated Processing
            Centers. 1
         C. Conducted walkthroughs to determine whether the Consolidated Processing Centers
            are following the controls over the RS–PCC as stated in the Internal Revenue
            Manual.
III.    Identified the controls in place at the Ogden Submission Processing Center to ensure
        RS–PCC payments that did not post to the taxpayers’ account are corrected, including
        dishonored checks.
         A. Discussed with IRS management the controls at the Ogden Submission Processing
            Center Accounting function.
         B. Conducted a walkthrough of the Ogden Submission Processing Center Accounting
            function to determine how the IRS handles RS–PCC payments that did not post to
            taxpayer accounts.
IV.     Selected a sample of 469 paper remittances to determine whether they were properly
        processed (scanned, transmitted, and payments posted to the taxpayer account).



1
  Electronic filing has significantly reduced the number of paper tax returns received each year by the IRS,
requiring fewer Submission Processing Centers to process paper returns. The Andover, Massachusetts;
Brookhaven, New York; Philadelphia, Pennsylvania; and Memphis, Tennessee, Submission Processing Centers have
been consolidated (closed). The work previously performed by Submission Processing at those sites is now done in
other Submission Processing Centers or by the Accounts Management function in Andover, Brookhaven, Memphis,
and Philadelphia.
                                                                                                      Page 16
                 Payments Processed Through the Remittance Strategy for Paper
                 Check Conversion Are Posted Accurately, but Deposit Timeliness
                                      Needs Improvement



          A. The sample included: 1) a statistical sample of 203 payments from the
             770,504 payments on the Master File processed from January 22, 2008, through
             July 22, 2009 (we used a 5 percent expected error rate with a 95 percent confidence
             level and ±3 percent precision); 2) all 14 payments equal to or greater than
             $2.5 million; 3) a random sample of 50 payments from the 896 payments equal to or
             greater than $100,000 but less than $2.5 million; 4) a random sample of 50 payments
             from the 8,480 payments equal to or less than $5; 5) all 76 payments pulled from
             3 batches of perfect payments ranging from $2.50 to $260,780 at the Memphis
             Consolidated Processing Center; and 6) all 76 payments pulled from 4 batches
             (3 batches of perfect payments and 1 batch of insolvency payments) ranging from
             $.23 to $198,651 at the Philadelphia Consolidated Processing Center. We validated
             the reliability of the computer-processed data by selecting a sample of 50 payments
             and compared the data to the data obtained from the Integrated Data Retrieval
             System. 2
          B. Obtained and analyzed Integrated Data Retrieval System data for the payments from
             the sample and identified any payment that was not accurately posted to the
             taxpayer’s account.
          C. Compared the payment received date and the deposit date to determine whether the
             payment was deposited timely. For the payments identified as being deposited
             untimely, we calculated the Lost Opportunity Cost (interest value) of the money
             received by the IRS but not deposited by the next business day.
V.      Determined whether processed remittance information is available from the archive
        system when needed and whether the archive system is reliable.
          A. For 253 of the 469 payments of the sample in Step IV., we determined if the image
             was available from the archive system and was readable.
          B. For 253 of the 469 payments of the sample in Step IV., we determined if the
             taxpayer expressed any intentions on how to apply the payment and determined if
             the IRS followed the intent of the taxpayer.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Campus Support function policies,


2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 17
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement



procedures, and practices for processing remittances through the work streams in campus
operations. We evaluated these controls by conducting a walkthrough of the RS–PCC process,
interviewing management, and reviewing processed remittances.




                                                                                    Page 18
              Payments Processed Through the Remittance Strategy for Paper
              Check Conversion Are Posted Accurately, but Deposit Timeliness
                                   Needs Improvement



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jackie E. Forbus, Lead Auditor
Sharon Shepherd, Senior Auditor
Jerome Antoine, Auditor
Nelva Usher, Auditor
Richard Hillelson, Information Technology Specialist




                                                                                    Page 19
             Payments Processed Through the Remittance Strategy for Paper
             Check Conversion Are Posted Accurately, but Deposit Timeliness
                                  Needs Improvement



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Officer OS:CFO




                                                                               Page 20
   Payments Processed Through the Remittance Strategy for Paper
   Check Conversion Are Posted Accurately, but Deposit Timeliness
                        Needs Improvement



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 21
Payments Processed Through the Remittance Strategy for Paper
Check Conversion Are Posted Accurately, but Deposit Timeliness
                     Needs Improvement




                                                        Page 22
Payments Processed Through the Remittance Strategy for Paper
Check Conversion Are Posted Accurately, but Deposit Timeliness
                     Needs Improvement




                                                        Page 23
Payments Processed Through the Remittance Strategy for Paper
Check Conversion Are Posted Accurately, but Deposit Timeliness
                     Needs Improvement




                                                        Page 24
Payments Processed Through the Remittance Strategy for Paper
Check Conversion Are Posted Accurately, but Deposit Timeliness
                     Needs Improvement




                                                        Page 25
